                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street N.E.
	                                                     Washington, DC 20002




            FAILURE TO OBTAIN REQUIRED PERMITS IN A TIMELY MANNER
                                 JUNE 26, 2013
                               CASE # MA-12-0099

Office of Investigations reviewed the actions of two managers in the Environmental Department
related to the acquisition of environmental permits. The investigation focused on the deliberate
failure of these managers to obtain required state and federal permits before proceeding with a
large demolition project at the Penn Coach Yard in Philadelphia, and their subsequent attempts
at a cover up of their actions. The failure to obtain necessary permits potentially exposed
Amtrak to substantial criminal and civil penalties for possible violations of the Federal Clean
Water Act and related state statutes and regulations. The Pennsylvania Department of
Environmental Protection ultimately issued the permits, but this occurred twenty-one months
after the demolition began. OI found that two managers manipulated data in order to improperly
circumvent the permit requirement. They also tried to cover up their actions by attempting to
influence a subordinate who was auditing the project. The two officials also attempted to
mislead OI investigators and to influence a subordinate’s cooperation with the investigation.
The company took administrative actions and agreed to make changes to policy and
procedures.
